             Annuity Deductions for Retired Employees Working 

                         After Full Retirement Age 

                     Report No. 06-04, February 17, 2006 


                                INTRODUCTION 


This report presents the results of the Office of Inspector General’s (OIG)
evaluation of the Railroad Retirement Board’s (RRB) processing of annuity
deductions for employee retirement annuitants who work after the full retirement
age (FRA).

BACKGROUND

The RRB’s mission is to administer retirement and survivor insurance benefit
programs for railroad workers and their families under the Railroad Retirement
Act. The RRB also administers unemployment and sickness insurance benefit
programs under the Railroad Unemployment Insurance Act. During Fiscal Year
(FY) 2005, the RRB paid approximately $4 billion in age and service benefits to
retired employees. As of September 30, 2005, approximately 200,000 employee
annuitants were receiving an average of $1,690 in monthly age and service
retirement benefits.

Working after retirement impacts a railroad annuity in one of three ways:

   •	 The entire annuity is not payable if the retired employee works for a
      railroad or railroad labor organization.

   •	 If an annuitant works for his/her last pre-retirement non-railroad employer
      (LPE), a portion of benefits is reduced, regardless of the amount of
      earnings or the annuitant’s age. The annuitant’s LPE is any non-railroad
      institution which employed the annuitant on his/her annuity beginning
      date, or for which he stopped working in order to receive an annuity.

   •	 A retired employee can work for a non-railroad employer other than a LPE
      and still receive retirement benefits. However, his/her benefits will be
      reduced if he earns over certain limits and is under the FRA. The FRA
      ranges from age 65 for those individuals born before 1938, to age 67 for
      those born in 1960 or later.

The RRB’s Office of Programs is responsible for monitoring annuitants subject to
work deductions and adjusting benefit payments accordingly. The RRB 2003
2008 Strategic Plan contains a strategic goal to “serve as responsible stewards
for our customers’ trust funds and agency resources.” A related objective is to
ensure the integrity of benefit programs, and the RRB conducts comprehensive
monitoring activities that identify and prevent erroneous payments. Effective
procedures addressing this strategic goal and objective would ensure that the
agency properly identifies work deductions and adjusts annuity payments.

                                        1

OIG Audit Report #05-10, Retired Employee Work Deductions Prior to Full
Retirement Age, issued September 19, 2005, determined that the agency can
increase case accuracy and ensure more timely processing by revising its
selection criteria for identifying potential LPE status annuitants. The OIG also
found that the agency should develop and disseminate official procedures for
screening and handling employee annuitants for further earnings review. Other
OIG evaluations in FYs 2004 and 2005 identified deficiencies in agency controls
designed to ensure that work deductions were applied to annuity payments.1

OBJECTIVE, SCOPE AND METHODOLOGY

The objective of this evaluation was to determine if the RRB identified and
applied work deductions to employee retirement annuities accurately. The scope
included employee age and service annuitants born between January 1, 1935
and October 31, 1938, and in current pay status as of February 28, 2005. We
reviewed non-railroad earnings in the year the annuitant attained full retirement
age and subsequent years. We excluded cases with railroad earnings (service)
because a prior OIG evaluation contained recommendations addressing
deficiencies in this area.

To achieve our objectives, we:

•	   Analyzed laws, regulations, policies, and procedures.

•	   Tested a statistical sample of 320 employee annuitants for the accurate
     recognition of earnings for work deductions. Further details on the sampling
     methodology appear in Appendix 1.

•	   Conducted meetings with officials in the Office of Programs to discuss
     questionable cases, and agency policies and procedures.

This review was conducted in accordance with the President’s Council on
Integrity and Efficiency’s “Quality Standards for Inspections,” as applicable to the
objectives. The fieldwork was performed at the RRB headquarters in Chicago,
Illinois from June to December 2005.




1
  OIG Audit Report: #04-10, Review of Spouse Annuity Work Deductions at the RRB, issued
September 30, 2004; #05-03, Evaluation of the RRB’s Processing of Disability Earnings Cases,
issued February 11, 2005; and #05-07, Evaluation of Survivor Annuity Work Deductions at the
RRB, issued July 14, 2005.

                                              2

                          RESULTS OF REVIEW 


The RRB is not identifying and applying work deductions to all employee
annuitants who work after FRA because some of these annuitants are not
monitored for LPE earnings.

The details of our findings and recommendations follow.

SOME ANNUITANTS OVER FRA ARE NOT MONITORED FOR LPE
EARNINGS

The RRB currently does not monitor all employee annuitants over FRA for work
deductions due to LPE earnings.

Effective management controls help program managers to safeguard assets as
well as prevent and detect errors and fraud. The RRB should conduct
comprehensive monitoring activities that identify and prevent erroneous
payments to ensure the integrity of its benefit programs.

The RRB identifies annuitants working for an LPE during the application process.
The Office of Programs continues to monitor annuitants who remain employed
through the Annual Earnings and LPE Monitoring process. During this process,
the office sends policing forms to employee, spouse, and divorced spouse
annuitants who are working, requesting that they inform the agency of changes in
work patterns or if their earnings drop below an amount that would allow payment
of additional benefits.

The Office of Programs also monitors the wage histories of its annuitants to
identify undisclosed income. This office obtains computer data extractions from
the Social Security Administration with yearly earnings data for annuitants in
current pay status. This detective monitoring program is called EDP policing.

However, the Office of Programs does not monitor all annuitants over FRA for
LPE earnings. These annuitants are removed from the Annual Earnings and
LPE Monitoring process the year after they stop working. They also are not
included in the EDP policing program. EDP policing does not identify earnings of
annuitants over FRA because this age category has not been programmed into
the extraction requirements for the program.

Therefore, if these annuitants resume working for the LPE and do not inform the
agency, work deductions will not be applied because the agency would not
detect the earnings. Without fully effective monitoring for earnings, the agency
may overpay benefits to some annuitants over FRA. Our sample evaluation
identified three annuitants who were overpaid a total of $3,440. Based on
confirmed exceptions, our preliminary estimate of the number of employee
annuitants over FRA with improper payments due to lack of LPE earnings


                                        3

monitoring is 224 with a one-time financial impact of approximately $257,000
(Appendix I).

Recommendation

We recommend that:

   1. The Office of Programs implement a plan to more effectively monitor
      annuitants over the full retirement age for LPE earnings.

Management’s Response

The Office of Programs agrees with the recommendation. The office plans to
submit a service request by February 28, 2006 to the Bureau of Information
Services (BIS) for programming changes to enhance the current computer
programs that identify LPE earnings. The Office of Programs will develop a
target date for completion of the changes in conjunction with BIS. A copy of
management’s response is included in Appendix II of this report.




                                       4

                                                                      Appendix I

                   Sampling Methodology and Results 

            Work Deductions for Employee Annuitants over FRA 



Objective and Scope

The objective of our test was to estimate the number of employee annuitants for
which benefits were not properly reduced for non-railroad earnings in the year of,
or after, they attained full retirement age (FRA). This test supported our overall
evaluation objective to determine if the Railroad Retirement Board accurately
identified and applied work deductions to employee annuities with earnings in the
year the annuitant attained FRA and after attaining FRA. We selected the
sample from the population of 23,854 employee annuitants born between
January 1, 1935 and October 31, 1938, who were in current pay status as of
February 28, 2005.

Review Methodology

We used statistical estimation sampling using a 5% anticipated error rate, 5%
precision and 95% confidence level, which yielded a sample size of 320.
Estimation sampling is designed to approximate the frequency of a specific type
of error in a universe. The sample size was set to provide assurance that the
error rate will be estimated with a desired degree of precision.

An error was considered an incorrect work deduction or no work deductions for:

    •	 An annuitant with last pre-retirement non-railroad employer (LPE)
       earnings, and/or

    •	 An annuitant with excess earnings in the calendar year the FRA was
       attained from a non-railroad employer other than a LPE.

Results of Review

The 320 randomly selected annuitants included 112 with non-railroad earnings in
or after the calendar year the FRA was attained. Our evaluation identified a total
of five exceptions. Three cases included annuitants with undetected LPE
earnings, resulting in overpayments of $3,440. The Office of Programs advised
that LPE earnings were not detected for these cases because the agency does
not always monitor earnings for certain retired annuitants over FRA.

The two remaining cases, resulting in improper payments of $5,611, consisted of
incorrect work deductions applied for annuitants with excess earnings. These
errors were caused by lack of consistent guidance for screening and handling
employee annuity cases, which the OIG cited in Audit Report #05-10, Retired

                                        5

Employee Work Deductions Prior to Full Retirement Age, issued September 19,
2005. Corrective action on the OIG recommendation addressing this deficiency
is scheduled for completion by February 2007. Therefore, no new
recommendation is necessary because corrective action will also cover cases in
this population.

Our summary of confirmed errors and projections are shown below:


       CAUSE OF INCORRECT WORK                           NUMBER OF                DOLLAR
       DEDUCTIONS                                       EXCEPTIONS                 VALUE

       Lack of Monitoring for LPE earnings                            3             $3,440


       Projection – Delayed cases (based on                        224            $257,114
       universe of 23,854)2


       Lack of Guidance                                               2             $5,611


       Projection – Improper payments (based on                    150            $421,611
       23,854 universe)2



Conclusion

Based on the exceptions, the RRB should implement a plan to more effectively
monitor annuitants over the full retirement age for LPE earnings.




2
 Projections are midpoint estimates based on the number of confirmed sample exceptions and
average error amount. Based on the sample results, the number of incorrectly paid annuitants
due to lack of LPE monitoring could be as low as 47 cases or as high as 644 for the population.
The number of incorrectly paid annuitants due to lack of guidance could fall within the range of 23
and 524.

                                                 6

Appendix II

